Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




       The Establishment of
      Child Support Orders for
            Low Income
       Non-custodial Parents




                   JUNE GIBBS BROWN
                    Inspector General

                        JULY 2000
                      OEI-05-99-00390
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago regional office prepared this report under the direction of William Moran, Regional
Inspector General and Natalie Coen, Deputy Inspector General. Principal OEI staff included:

REGION                                                  HEADQUARTERS

Victoria Dougherty, Project Leader
                     Linda Hall, Program Specialist

Ann Maxwell, Analyst
                                   Joan Richardson, Program Specialist

Marco Villagrana, Analyst

Madeline Carpinelli, Analyst

James Athos, Intern

Robert Gibbons, San Francisco Regional Office

Blaine Collins, Dallas Regional Office

Chaletta Clark, Boston Regional Office

Christi Macrina, New York Regional Office

Erika Q. Lang, Philadelphia Regional Office





        To obtain copies of this report, please call the Chicago Regional Office at 312-353-9867.
          Reports are also available on the World Wide Web at our home page address:

                                     http://www.hhs.gov/oig/oei
                   EXECUTIVE                         SUMMARY


PURPOSE

       To examine the policies and practices used to determine the amount of child support to be
       paid by low-income non-custodial parents and the relationship of these practices to the
       dollars collected on low-income cases.

OVERVIEW

       This inspection focuses on the relationship between the payment of child support and
       order establishment practices for a subset of the non-custodial parent population — low-
       income non-custodial parents. This subset constitutes about one-third of the total non-
       custodial parent population.1 The goal of this inspection is to understand current methods
       of setting support for these non-custodial parents and to determine possible alternative
       methods to improve their payment rates.

Sources of Non-Payment of Child Support

       The non-custodial parent population can be divided into three income tiers: high, middle,
       and low. In each of these tiers, there are non-custodial parents who do not pay their child
       support. The percentage of obligors who do not pay child support is greatest in the low-
       income tier. In this tier, obligors have family income below the poverty threshold for their
       family size or personal income below the poverty threshold for a single individual.2

       Some low-income obligors are delinquent in support payments because they are unwilling
       to pay support. However, one study estimates that 60 percent of non-custodial parents
       who do not pay child support, have a limited ability to pay support based on their income
       levels, education levels, high rates of institutionalization, and intermittent employment
       history.3 These non-custodial parents have come to be known in the child support
       community as “dead-broke” rather than “dead-beat.”

       While the increased use of enforcement mechanisms may positively affect the payment
       compliance of higher income obligors, tools such as asset seizure, passport denial and the
       criminal pursuit of non-support are not likely to generate payments from obligors who do
       not have the income to pay the support they owe, even if they are willing to pay.




   Low-Income Non-Custodial Parents                                                   OEI-05-99-00390
                                                1
Promoting Payment of Child Support

       In order to increase the payment of child support by low-income obligors, representatives
       of the child support community have begun to explore other avenues in addition to
       punitive enforcement. Congressional support for the proposed Fathers Count Act, the
       Department’s Fatherhood Initiative and the IV-D Community’s fatherhood activities
       demonstrate a growing effort to address payment inability in order to increase collections.
       The Personal Responsibility and Work Opportunities Reconciliation Act of 1996
       (PRWORA) presented a package of temporary aid and opportunities to welfare mothers in
       return for the expectation that they would get a job and become self-sufficient. Child
       support payments are seen as a vital ingredient to this self sufficiency. In order to increase
       child support payments to former welfare families, the limited earnings capacity of the
       fathers of these families need to be addressed. Just as welfare mothers are expected to
       improve their personal responsibility in exchange for work opportunities, so should low-
       income fathers. Congress expanded Welfare-to-Work funding with this intention.

       In recognition of the need to increase collections in low-income cases, we examined the
       methods used to determine the financial obligations owed by non-custodial parents and
       their relationship to payment collections in low-income cases. We conducted our
       inspection through case record reviews of 402 cases, representing 281 non-custodial
       parents, and through in-depth interviews in a 10 State sample.

       This report looks in depth at the practices used to determine financial obligations in 10
       States and the payment compliance associated with these practices. Our companion
       report, State Policies Used to Establish Child Support Orders for Low-income
       Non-custodial Parents, provides information on all States’ policies in this area.

FINDINGS

       Methods Used to Determine Financial Obligations for Low-income Obligors
       Often Yield Poor Results

       States use tools such as retroactive support and income imputation to encourage non-
       custodial parents to cooperate with child support and to enforce accountability. It is
       understandable that States do not want to reward a non-custodial parent for delaying the
       award or for not earning income to pay support. However, it appears that these incentives
       to cooperate are not effective means of getting non-custodial parents to pay support.

       ‚	       RETROACTIVE SUPPORT: Most sampled States routinely charge non-
                custodial parents for retroactive support. The longer the period of retroactivity,
                the less likely it is that the parent will pay any support.


   Low-Income Non-Custodial Parents                                                    OEI-05-99-00390
                                                  2
             When non-custodial parents were not charged any retroactive support, 14 percent
             made no payments during the first 32 months of the child support obligation.
             When non-custodial parents were charged between 1 and 12 months of retroactive
             support, the percent which made no payments rose to 23 percent. The percentage
             of non-payers rose to 34 percent when the non-custodial parents were charged for
             more than 12 months of retroactive support.

    ‚	       INCOME IMPUTATION: Most sampled States impute income when the non-
             custodial parent is unemployed or income is unknown. Income imputation appears
             ineffective in generating payments.

             Where imputed income was used to calculate the amount of the child support
             obligation owed in cases established in 1996, almost half of the cases generated no
             payments toward the financial obligation over a 32 month period. In contrast,
             where cases were not based on imputed income, only 11 percent of cases received
             no payments during this time period. While it is possible that the parents for
             whom income was imputed were potentially less likely to pay anyway, imputing
             income does not appear to be an effective method of getting them to pay.

    ‚	       MINIMUM ORDERS: Six of the sampled States routinely establish minimum
             orders when the non-custodial parent has limited payment ability. Minimum order
             cases exhibit lower payment compliance than other cases.

             In 36 percent of cases established as a minimum order in 1996, the non-custodial
             parents made no payments in the first 32 months of the order. In contrast, 20
             percent of cases established as non minimum orders (i.e. all others) received no
             payments over this time. This non-payment could be a reflection of limited
             earnings and the fact that minimum awards are not based on actual income.

    ‚	       DEBT OWED TO THE STATE: Most sampled States will not reduce debt
             owed to the State by the non-custodial parent except in rare cases. Median debt
             on 1996 cases is over $3,000.

             Non-custodial parents can accrue an unlimited amount of debt owed to the State
             which remains on their account indefinitely, regardless of whether the debt is due
             to inability to pay or unwillingness to pay. Seventy-five percent of cases
             established in 1996 owed over $1,231 in child support debt 32 months after the
             financial order was established.

    ‚	       JOB PROGRAMS: Few sampled child support agencies formally link with job
             programs. Non-custodial parent participation in such programs is minimal.

Low-Income Non-Custodial Parents                                                    OEI-05-99-00390
                                              3
               Despite increasing attention to the limited earnings capacity of low-income non-
               custodial parents and increased funding for job services, most sampled States have
               only informal arrangements for referral to existing job services programs. These
               programs are largely external to the IV-D agencies with little to no participation by
               non-custodial parents.

CONCLUSION

      As the facts in this report demonstrate, the policies reviewed do not usually generate child
      support payments by low-income non-custodial parents. Recognition of this fact presents
      opportunities to improve payment levels by modifying State policies that determine the
      amount that low-income absent parents must pay. Clearly, some systematic
      experimentation is warranted.

      The experiments should emphasize parental responsibility, while improving the ability of
      low-income non-custodial parents to meet their obligations. This requires a dual approach
      of setting realistic support obligations and providing employment support with work
      requirements. The goal of these approaches is to get non-custodial parents to take
      financial responsibility for their child, which is to the benefit of all of the parties involved
      — the custodial parent, the State and, ultimately, the child.

      States are in the best position to conduct such experiments. However, the Office of Child
      Support Enforcement can do much to encourage, facilitate, and evaluate such State
      experimentation. We offer suggestions for State research and experimentation
      corresponding to the four areas of analysis contained in this report: retroactive support,
      income imputation, debt owed to the States, and job programs. We present the following
      suggestions to OCSE:

      ‚	       Facilitate and support State experiments to test the payment effects of using
               various periods of retroactivity in determining the amount of support to be paid.

      ‚	       Facilitate and support State experiments to test negotiating the amount of debt
               owed to the State in exchange for improved payment compliance.

      ‚	       Encourage States to decrease the use of income imputation and to test alternative
               means of identifying income for low-income obligors.

      ‚	       Encourage States to formalize ties to local job services programs and to require
               unemployed non-custodial parents to participate in job programs.



  Low-Income Non-Custodial Parents                                                      OEI-05-99-00390
                                                 4
AGENCY COMMENTS

The Administration for Children and Families (ACF) and the Assistant Secretary for Planning and
Evaluation (ASPE) provided formal comments to the draft report. Both offices concurred with
the report’s findings and suggested approaches. The text of the ACF and ASPE comments can be
found in Appendix F.

In addition to existing initiatives, ACF described numerous actions that they will take to
implement the suggested approaches with regard to retroactive support charges, compromising
arrears, income imputation, and job programs.

The ASPE commented that our findings are consistent with, and complementary to, other
research on this subject. The ASPE also indicated that our suggested approaches would
strengthen existing Administration efforts to improve the payment compliance and involvement of
low-income non-custodial parents.




   Low-Income Non-Custodial Parents                                                OEI-05-99-00390
                                               5
                      TABLE                           OF                CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


FINDINGS

      Retroactive Support . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Income Imputation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          Minimum Orders . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


          Debt Owed to States . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


          Job Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29


APPENDICES

    A. Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30


          B. Results of Hypothesis Testing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31


          C. Case Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34


          D. Related Office of Inspector General Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40


          E. Bibliography . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41


          F. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42


          G. End-Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54





     Low-Income Non-Custodial Parents                                                                                  OEI-05-99-00390
                                                                   6
                                INTRODUCTION

PURPOSE

       To examine the policies and practices used to determine the amount of child support to be
       paid by low-income non-custodial parents and the relationship of these practices to the
       dollars collected on low-income cases.


BACKGROUND

       This report examines how a sample of 10 States determine the financial obligations owed
       by non-custodial parents and the relationship between these practices and payment
       compliance. While this report looks in depth at these practices in 10 States, a companion
       report, State Policies Used to Establish Child Support Orders for Low-income
       Non-custodial Parents (OEI-05-99-00391), provides information on all States’ policies in
       this area. A follow-up report will examine the degree to which child support orders are
       aligned with the actual earnings of low-income non-custodial parents and the relationship
       between order alignment and payment compliance.

Low Payment Rates And Custodial Parent Poverty

       Although child support collections have increased significantly in recent years, overall
       rates of collection remain low. In fiscal year (FY) 1997, of the $17.6 billion due in
       current support, $8.1 billion, or 46 percent was not collected.4

       Low child support collections leave many single mothers and their children in poverty. In
       1995, 85 percent of custodial parents were women, 33 percent of whom lived below the
       Federal poverty line.5 The percentage of custodial parents receiving welfare declined
       significantly in the past few years, dropping from 47 percent in 1995 to 34 percent in
       1998.6 This decline in welfare receipt elevates the need for increased child support
       collections to help struggling single parents maintain self-sufficiency. The regular receipt
       of child support is often cited as a critical ingredient to welfare reform success.

The Earnings of Non-Custodial Parents

       The non-custodial parent population can be divided into three income tiers: high, middle,
       and low. In each of these tiers, there are non-custodial parents who do not pay their child


   Low-Income Non-Custodial Parents                                                   OEI-05-99-00390
                                                 7
       support. The percentage of obligors who do not pay child support is greatest in the low-
       income tier. In this tier, obligors have family income below the poverty threshold for their
       family size or personal income below the poverty threshold for a single individual.7

       Some low-income obligors are delinquent in support payments because they are unwilling
       to pay support. However, it is estimated that 60 percent of non-custodial parents who do
       not pay child support, have a limited ability to pay support based on their income levels,
       employment history, education levels and rates of institutionalization.8 In one study of
       low-income obligors, 60 percent had no high school diploma or GED and 70 percent had
       been arrested.9 These non-custodial parents are known in the child support community as
       “dead-broke” rather than “dead-beat.”

       The Office of Inspector General and the Office of Child Support Enforcement have a joint
       enforcement effort targeted at higher income obligors with the most egregious arrears.
       The focus of this highly successful initiative is the criminal pursuit of non-support. While
       the increased use of enforcement mechanisms may positively affect the payment
       compliance of higher income obligors, tools such as asset seizure, passport denial and the
       criminal pursuit of non-support are not likely to generate payments from obligors who do
       not have the income to pay the support they owe.

Increasing Attention to the Treatment of Low-income Non-custodial Parents

       In recent years, the research and policy community has devoted more attention to the
       treatment of low-income non-custodial parents in the child support system. Especially in
       the wake of welfare reform, more attention is being devoted to how to improve the family
       maintenance contributions of low-income fathers to parallel the welfare-to-work initiatives
       for low-income mothers. Three recent developments demonstrate this trend.

       C	       The Department of Health and Human Services has highlighted its Fatherhood
                Initiative as a priority. The Fatherhood Initiative strives to promote and support
                the involvement of fathers in their children’s lives. To this end, a portion of
                welfare-to-work funds in the Balanced Budget Act of 1997 was designated to help
                low-income fathers secure employment, pay child support and increase their
                involvement with their children. The Department has also provided funds for
                services targeting non-custodial parents through the Fatherhood Initiative and
                related OCSE demonstrations. Most recently, in March 2000, the Department
                announced $15 million in combined federal and private funding for demonstration
                projects serving non-custodial parents who do not have a child support order in
                place and may face obstacles to employment.

       C        Amendments to the welfare-to-work law in the November 1999 Consolidated

   Low-Income Non-Custodial Parents                                                   OEI-05-99-00390
                                                 8
               Appropriations Act broadened the eligibility requirements for non-custodial
               parents to participate in the services available through welfare-to-work programs.

      C	       Building upon these efforts to boost the financial and emotional contributions of
               non-custodial parents, the U.S. House of Representatives passed the Fathers
               Count Act in November 1999. This proposed legislation includes grants for
               projects designed to promote successful parenting and encourage payment of child
               support. The bill is expected to be considered by the U.S. Senate in 2000.

      As researchers and policy-makers develop strategies to increase the cooperation of non-
      custodial parents, one primary area of concern is the order establishment process.
      Representatives of the child support enforcement community have raised questions about
      the effect of income imputation and arrearage policies on the non-custodial parent’s ability
      to comply with the support order obligation.

      The establishment of orders for child support enforcement cases (also known as IV-D
      cases, referring to the related title of the Social Security Act), occurs through either
      judicial or administrative processes. States are required to establish child support orders
      in accordance with State guidelines, outlining specific descriptive and numeric criteria.
      Any deviation from the presumptive guideline amount must be justified in writing.

      This report and its companions examine how States address the limited incomes of non-
      custodial parents in the determination of financial obligations for support and the
      relationship between these practices and payment compliance. Inability to pay is only one
      of several reasons for non-compliance with child support orders. Other reasons often
      cited as potential motivators of unwillingness to pay support include custody and visitation
      disputes and State retention of payments made on behalf of families on welfare. Future
      inspections will examine these other potential barriers to payment compliance.


SCOPE AND METHODOLOGY

      In this inspection, we examined State policies used to determine the amount of support
      owed, the implementation of these policies in 10 States and the relationship between these
      policies and payment compliance on a random sample of cases in the 10 States.

      We selected a random sample of cases (and the 10 States associated with them) using a
      two-stage, stratified cluster sample. We stratified the continental United States (excluding
      Alaska) into three strata based on State policy regarding the establishment of minimum
      awards for low-income obligors. We then divided each State into a number of case
      clusters based on the estimated number of child support cases per State. From each

  Low-Income Non-Custodial Parents                                                    OEI-05-99-00390
                                                9
    stratum, we randomly selected three or four clusters. The States containing the randomly
    selected clusters became our sample States, shown below.

                                                        Clusters
        Stratum      Description
                                     Population                    Sample

                      Awards in
           1           court’s      893 Clusters         3 Clusters in MS, OK, PA
                      discretion     in 16 States

                     Presumptive   614 Clusters in
           2                                             3 Clusters in TX, VA, WA
                       awards        18 States

                                   652 Clusters in
                      Mandatory
                                    14 States plus
           3          minimum                          4 Clusters in CO, MA, MD, NY
                                     District of
                       awards
                                      Columbia


    For stratum 3, we randomly selected two replacement clusters because our first selections,
    Michigan and Indiana, declined to participate in the study. Because of this replacement,
    our statistics are projected to a population that excludes the clusters for Michigan (153
    clusters) and Indiana (35 clusters).

    We reviewed State documents to examine the order establishment policies of the 10
    sample States. To examine how these policies are implemented by local offices, we
    conducted site visits to two child support enforcement offices in each sampled State - one
    in proximity to the State capital and one within 150 miles distance of the capital. In each
    office, we interviewed a manager and a staff-person responsible for establishing support
    orders regarding the local practices used to establish orders for low-income non-custodial
    parents.

    We conducted our interviews between September and November 1999. All descriptions
    of local order establishment policies and practices are current as of this period. We
    conducted our interviews in Oklahoma just prior to the implementation of new State
    guidelines scheduled to take effect November 1st, 1999. The descriptions of order
    establishment policies and practices in Oklahoma are current as of October 1999.

    We also conducted case record reviews in each of the 10 States. From these States we
    obtained data on all child support cases in which (1) the child support order was
    established during 1996, (2) the custodial parent was on Aid to Families with Dependent
    Children (AFDC) or Temporary Assistance to Needy Families (TANF) at the time the
    order was established, and (3) the case was still open. We chose cases in which the
    custodial parent was on AFDC or TANF because of the demonstrated correlation between

Low-Income Non-Custodial Parents                                                      OEI-05-99-00390
                                                  10
    custodial family welfare receipt and non-custodial parent low-income status. One analysis
    of compiled research on the incomes of non-custodial parents, using 1995 dollars, found
    that the mean annual income of fathers of children on welfare was between $10,000 and
    $15,000. The 1995 poverty level for an individual with one child was $10,504.10

    We randomly assigned the non-custodial parents for these cases to each State’s clusters.
    We then randomly selected one cluster per State for our sample. From these clusters, we
    randomly selected a sample (usually 35 per cluster) of non-custodial parents. We
    reviewed all child support cases for each non-custodial parent in our sample, including any
    cases the non-custodial parent had open for other children. This resulted in a sample of
    281 non-custodial parents with 402 child support cases, of which 298 cases had been
    established during 1996 in the sampled States. Data on the methods used to establish
    support orders and the subsequent payments generated is based on the cases established
    during 1996 in the sampled States.

    The payment period we examined on all cases is 32 months as this was the period of time
    for which all cases had the opportunity for payment. Thirty-two months is the minimum
    amount of time between the last month in which sampled orders were established,
    December 1996, and the last month for which we had access to payment information for
    all cases, August 1999. Except where specified, the statistics in this report are weighted
    to reflect all levels of clustering and stratification. All reported correlations are
    statistically significant at the 90 percent confidence level or greater.

    Appendix C contains weighted projections from our sampled cases for all of the policies
    examined, with greater detail provided on some of the policies than what is covered in the
    text of the report.

    In this report we examined the interaction between some order establishment practices and
    inability to pay and the relationship of this interaction to low collections. We did not
    examine unwillingness to pay by the sampled non-custodial parents and its effect on
    collection rates. We plan to examine some of the factors contributing to unwillingness to
    pay, such as custody and visitation disputes and pass-through policies, in future
    inspections. We also did not examine all of the policies of the sampled States guidelines in
    detail, concentrating instead on the guideline policies covered in this report.

    Our review was conducted in accordance with the Quality Standards for Inspections
    issued by the President’s Council on Integrity and Efficiency.




Low-Income Non-Custodial Parents                                                   OEI-05-99-00390
                                            11
                                     FINDINGS

RETROACTIVE SUPPORT: Most sampled States routinely
charge non-custodial parents for retroactive support. The
longer the period of retroactivity, the less likely it is that the
parent will pay any support.
      All sampled States have a policy to charge non-custodial parents for retroactive support,
      payable to either the custodial parent or the State depending on welfare status, for the
      time prior to the establishment of the order. Eight of the 10 States routinely act on this
      policy with the commencement of financial responsibility ranging from the date of birth of
      the child to the date the request for support was filed. Respondents in Massachusetts and
      Mississippi indicated that it is not standard practice to charge non-custodial parents for
      retroactive support in their States.

      While Colorado and Texas charge the non-custodial parent for support back to the child’s
      date of birth regardless of the amount of time passed, Oklahoma limits the allowable
      duration to 60 months. Virginia charges for retroactive support to the date paternity was
      established. New York and Washington apply the retroactive charge as of the date the
      TANF case opened or the date of filing for support in non-TANF cases. Maryland and
      Pennsylvania limit retroactivity to the date of filing for support in all cases.

      Non-custodial parents were charged retroactive support in 58 percent of child support
      cases established in 1996. In 53 percent of the cases charged, charges were for 12 months
      or less. In 31 percent, charges were for 13 months to 36 months of retroactive child
      support. In 16 percent, charges were for more than 36 months of retroactive support.

      There are several reasons States charge retroactive support: 1) as a disincentive to non-
      custodial parents to delay the establishment of support; 2) to hold non-custodial parents
      accountable for supporting their children from birth; and 3) to recoup expenses incurred
      by the State or the custodial parent for caring for the child without the other parent’s help.
      While these are sound reasons for charging retroactive support, our analysis indicates that
      doing so may be counter-productive to getting support payments.




  Low-Income Non-Custodial Parents                                                    OEI-05-99-00390
                                               12
The longer the time for which non-custodial parents are charged retroactive
support, the less likely they are to make any payment on their child support order
once established

       A logistic regression shows that

       the increase in the length of time

       for which parents are charged

       retroactive support is

       significantly associated with an

       increase in the probability that

       the case will generate no

       payments. As depicted, when

       non-custodial parents were not

       charged retroactive support, 

       14 percent made no payments

       during the first 32 months of the

       child support obligation. When non-custodial parents were charged between 1 and 

       12 months of retroactive support, the percent which made no payments rose to 23

       percent. The percentage of non-payers rose to 34 percent when the non-custodial parents

       were charged more than 12 months of retroactive support. 


Charges for retroactive support are based on the monthly support obligation and
are often over $1,000

       In all of the sampled States, retroactive support is calculated by applying the State
       guidelines to the non-custodial parent’s income to determine the monthly support
       obligation, multiplied by the number of months they are obligated. Although retroactive
       support is often owed to the State to recover costs for welfare paid to support the child,
       the amount of welfare paid does not determine the amount owed. The sampled States
       charge the non-custodial parent for the guideline award amount for the period of
       retroactivity, retaining the portion equal to prior welfare payments provided and allocating
       the remainder, if any, to the custodial parent.

       Of cases established in 1996 with retroactive support charges, the median amount of
       retroactive support charged was just under $1,500. In States that charge for retroactive
       support preceding the date of filing for support, the median amount charged was $1,542,
       with 17 percent of the cases charged over $5,000. In States which limit retroactivity to
       the date of filing for support, the median amount of retroactive support charged was $383.




   Low-Income Non-Custodial Parents                                                   OEI-05-99-00390
                                                13
Other front-end charges used by our sampled States include court and attorney
fees and recovery costs for paternity testing and birth-related medical costs

       According to the State policy in all of our sampled States, the non-custodial parent is
       charged for the costs of paternity testing if he does not voluntarily acknowledge paternity
       and is found to be the father. Respondents in Massachusetts indicated that non-custodial
       parents are rarely ever charged for paternity tests while respondents in the other States
       indicated that non-custodial parents are routinely held accountable for these costs, with
       the exception of minors in Pennsylvania. The reported costs of paternity tests in the
       sampled States range from $140 to $400.

       Three of the sampled States routinely charge non-custodial parents for service of process,
       court or attorney fees at the point of order establishment. In Pennsylvania and Colorado,
       the reported fees ranged from $15 to $30. In Mississippi, the reported fees are $32 if the
       parties stipulate to the proposed order and $117 if the case is heard in court. In three
       other sampled States, non-custodial parents are sometimes charged attorney fees in non-
       TANF cases, however this is not routine.

       While six States have a policy to charge non-custodial parents for birth-related costs,
       respondents in only two States indicated applying these charges in practice. Respondents
       in one local office in New York and both local offices in Pennsylvania stated that non-
       custodial parents are routinely charged for birth-related medical costs paid by the State.
       The charges of birth-related medical expenses were cited by these respondents as running
       between $2,000 and $4,000 on average.

       In 9 percent of child support cases established in 1996, non-custodial parents were
       charged for paternity testing with a median charge of $206. Court fees were charged in
       14 percent of the cases with a median charge of $243. Less than 1 percent of non-
       custodial parents were charged attorney fees or birth-related medical charges. Of the
       1996 cases which were charged these and other miscellaneous fees, an average (mean) of
       $257 in fees was added to the initial obligation. However, of all 1996 cases, only $63 on
       average was added to the cases by other fees. The bulk of front-end costs is clearly
       constituted by retroactive support charges.

       A greater percentage of the non-custodial parents who were charged front-end costs,
       including retroactive support, did not make any payments towards the monthly support
       obligation after order establishment than non-custodial parents who were not charged
       front-end costs. Twenty-three percent of all cases were not charged any front-end costs.
       Of these cases, 16 percent of the non-custodial parents made no payments towards the
       monthly support obligation during the first 32 months of the order, whereas 26 percent of
       the non-custodial parents charged up-front costs made no payments during this time.

   Low-Income Non-Custodial Parents                                                   OEI-05-99-00390
                                                14
Employer withholding fees and interest charges can add to ongoing financial
obligations

       All of the sampled States, except New York, allow employers to charge non-custodial
       parents income withholding fees, ranging from $1 to $5 per transaction. Mississippi
       charges non-custodial parents $5/month payable to the State for income withholding
       processing in addition to the transaction fee charged by the employers.

       In 8 of the 10 States, it is State policy to charge interest on unpaid support. Four of these
       States routinely charge interest, with rates ranging from 9 to 18 percent annually. In a
       couple of States, the charges are only levied if the cases meet certain non-payment criteria.
       In Colorado, the county IV-D offices determine whether interest will be charged. In
       Denver, with a significant share of the Colorado caseload, interest is charged on unpaid
       support at a rate of 12 percent compounded monthly. However, in non-TANF cases, the
       custodial parent can waive the interest. In TANF cases, the Denver IV-D office uses
       interest as a negotiation tool to bring non-custodial parents into payment compliance.


INCOME IMPUTATION: Most sampled States impute income
when the non-custodial parent is unemployed or income is
unknown. Income imputation appears ineffective in
generating payments.
       Most of the sampled caseworkers said that they primarily use income documentation
       provided directly by the non-custodial parent, such as wage stubs or tax statements, to
       calculate support due. If the non-custodial parent fails to appear or provide this
       documentation, most of the caseworkers then search for income information through an
       automated interface with the State labor or tax record systems. Most of the caseworkers
       indicated that they do not yet obtain income information from the National Directory of
       New Hires. If income information is obtained through the State labor or tax systems,
       caseworkers typically verify this information with the indicated employer.

       In all sampled States except Mississippi, income is imputed to the non-custodial parent if
       no income information is available through the above means. Half of the States impute
       income when the non-custodial parent is unemployed. Most of the States also impute
       income if the parent is deemed to be “underemployed”. For example, if a non-custodial
       parent works 35 hours/week at a minimum wage job, minimum wage earnings for the
       additional 5 hours will be imputed to the parent in the support calculations.

       In the nine States that impute income, the most common reasons cited were that the non-


   Low-Income Non-Custodial Parents                                                   OEI-05-99-00390
                                                15
       custodial parent was unemployed or did not provide earnings information. In 37 percent
       of cases established in 1996 where income was imputed, it was due to unemployment or
       underemployment. In 46 percent of imputed cases, the non-custodial parent did not
       appear at the conference or court hearing or failed to provide income information. In their
       absence, orders were set by default using an imputed income.

       Respondents indicated that the primary source of information on which they base
       imputation is the non-custodial parent’s most recent work history. When a work history is
       unavailable, several States base earnings capacity on the non-custodial parent’s skills and
       education. In the absence of any information, most States base imputed income on
       minimum wage earnings for a 40 hour work week. In imputed cases established in 1996,
       child support agencies used minimum wage as the basis to impute in 65 percent of cases.

Imputed cases exhibit lower payment compliance than non-imputed cases

       In all of the States, 33 percent of the

       cases established using imputed

       income generated no payments.

       Based on the information available

       in case files, we were only able to

       universally determine whether

       income was imputed in three States

       (CO, MA & TX). In the other

       seven States, files did not contain a

       specified means to indicate

       imputation. Therefore, we could

       not be sure that cases not indicated

       as imputed, were not in fact

       imputed. To compare payments

       generated by imputed vs. non-

       imputed cases, we limit our analysis

       to these three States. 


       In the three States, 45 percent of the

       financial awards established in 1996

       were based on imputed income. 

       Forty-four percent of these imputed

       cases generated no child support

       payments over a 32 month period, commencing with the start of the order. In contrast,

       only 11 percent of non-imputed income cases in these three States generated no payments

       during this time. Despite the limitation of this analysis to three States, this difference is

       statistically significant at the 99 percent confidence level.

   Low-Income Non-Custodial Parents                                                    OEI-05-99-00390
                                                  16
      A causal relationship between the use of income imputation and lack of payments can not
      be assumed. Non-custodial parents who fail to provide information or are unemployed at
      the time of order establishment are potentially less likely to pay support than those who
      appear in court or are employed. However, as demonstrated, imputing income to these
      parents to calculate their support, is not a very effective method of getting them to pay.



MINIMUM ORDERS: Six of the sampled States routinely
establish minimum orders when the non-custodial parent
has limited payment ability. Minimum order cases exhibit
lower payment compliance than other cases.
      According to State policy, eight States establish child support orders using a minimum
      monthly payment amount when the non-custodial parent’s income is below a specified
      threshold or earnings capacity is limited. The thresholds for low-income obligors in these
      eight States range from $400/month to $686/month.

      In two of these States with a minimum order policy, Colorado and Mississippi,
      respondents indicated that minimum orders are rarely established. In Mississippi,
      caseworkers rely on court discretion in cases where the earnings capacity of the non-
      custodial parent is limited. In Colorado, respondents indicated that they routinely impute
      income to be minimum wage to calculate the award in lieu of setting a minimum order.

      Respondents in the other two States without a minimum order policy, Oklahoma and
      Texas, indicated that they also routinely impute income to be minimum wage when the
      non-custodial parent is unemployed or income is unknown. In States imputing income as
      minimum wage, orders reportedly range from $125 to $185 per month for one child,
      depending on the income of the custodial parent. In the other six States, reported
      presumptive minimum monthly order
      amounts range from $20 to $50 per month.

      Many States establish minimum orders for
      obligors without known income with the
      expectation that all parents, regardless of
      income, should make some financial
      contribution to their child. Additionally,
      some staff argue that it is important to put a
      financial order in place which can then be
      modified once income is known.


  Low-Income Non-Custodial Parents                                                  OEI-05-99-00390
                                                17
A higher percentage of minimum order cases made no payments towards their
support obligation than non minimum order cases

       Minimum awards were set for 13 percent of the cases established in 1996 with a median
       charge of $55/month. In 36 percent of cases established as a minimum order in 1996, the
       non-custodial parents made no payments in the first 32 months of the order. In contrast,
       20 percent of cases established as non minimum orders (i.e. all others) received no
       payments over this time. This lack of payment on minimum orders could be a reflection of
       limited earnings capacity and the fact that minimum awards are not based on actual
       income.

Minimum orders are often used to establish orders for incarcerated non-custodial
parents

       Most sampled States do not have a uniform policy for setting support orders when the
       non-custodial parent is incarcerated at the time the order is established. Respondents in
       most of the local offices visited either set a minimum order amount or wait until the non-
       custodial parent is released to establish a financial obligation. In one local office visited in
       Texas and in both local offices in Oklahoma, the non-custodial parent is responsible for
       paying an award based on income imputed as minimum wage for 40 hours/week during
       incarceration. Offices that wait until the non-custodial parent is released establish
       paternity while the non-custodial parent is incarcerated and then establish the financial
       obligation upon release or at an interval shortly thereafter.

       In all sampled States, respondents indicated that arrears continue to accrue for non-
       custodial parents that become incarcerated after the order is established. The burden is on
       the non-custodial parent to request a modification of the order. All of the respondents
       indicated that incarcerated non-custodial parents rarely request a modification. In all but
       one of the local offices visited, accrued debt remains on the non-custodial parent’s child
       support account after release. In one county in Pennsylvania, the caseworker interviewed
       indicated that the non-custodial parent could, upon release, petition to have the arrears
       that accrued while incarcerated forgiven.



DEBT OWED TO STATES: Most sampled States will not
reduce debt owed to the State by the absent parent except in
rare cases. Median debt on 1996 cases is over $3,000.
       Respondents in every sampled State indicated that debt owed to the State is almost never
       reduced, nor are arrears ever limited after the point of order establishment. Non-custodial

   Low-Income Non-Custodial Parents                                                       OEI-05-99-00390
                                                  18
       parents can accrue an unlimited amount of debt owed to the State which remains on their
       account indefinitely. Respondents in most States indicated that judges may intervene to
       reduce the debt but this rarely happens. In Massachusetts, Pennsylvania and Texas
       respondents said that the State can and has appealed a judge’s decision to reduce debt
       owed to the State by a non-custodial parent.

       In Colorado, the county child support office can negotiate the amount of debt owed by the
       non-custodial parent for un-reimbursed public assistance if any other county that is also
       owed un-reimbursed public assistance agrees to the negotiated amount. In Washington,
       the debt owed to the State by a non-custodial parent may be reduced administratively if
       hardship can be proven. Examples of hardship include if the non-custodial parent is on
       welfare or if paying the debt would harm other children for whom the non-custodial parent
       is responsible. However, this debt is not legally eliminated and could be pursued in the
       future in court.

       Respondents in every State, except Texas, indicated that debt owed to the custodial parent
       is forgiven if the custodial parent agrees to waive the arrears owed to her. In some
       States, the custodial parent must agree to this debt forgiveness in a legal court order.

       States are reluctant to reduce debt because they have expended public resources to
       support the child in the absence of the non-custodial parent fulfilling their responsibility.
       While this is understandable, large debt burdens may deter the non-custodial parent from
       making any support payments, thus resulting in a lower return on the public expenditures.
       The median amount of debt remaining on child support cases established in 1996 after 32
       months of expected payments was $3,278. The mean amount of debt after 32 months was
       $4,831, with some cases owing over $25,000. Seventy-five percent of cases established in
       1996 owed over $1,231 in child support debt 32 months after the financial order was
       established.

Most Sampled States will modify the pay-back plan on arrears

       While debt is rarely reduced, all of the States allow modifications to the pay-back plan on
       arrears. In six States, modifications are made to reduce the rate of repayment when the
       non-custodial parent cannot afford the established rate. In the other four States,
       modifications usually involve increasing the scheduled amount due, condensing the period
       of time in which the arrears are to be paid.

       In four of the six States that reduce the repayment rate, the rates are linked to the monthly
       support obligation (MSO) at the point of order establishment. In three of these States
       (NY, VA, & WA), modifications to the rate of repayment are made administratively at a


   Low-Income Non-Custodial Parents                                                    OEI-05-99-00390
                                                19
       later point if the non-custodial parent cannot afford to pay. In Massachusetts, a change in
       the rate of arrears payments must be court ordered. Oklahoma and Colorado set
       repayment rates according to State policy to amortize the debt over a fixed time period,
       rather than base the rate on the MSO. Respondents said that they adjust the rates at the
       time the order is established if the non-custodial parent cannot afford to pay the rate in
       accordance with State policy.

Modifications to the monthly obligation amount are dependent upon proof of a
substantial change in circumstances

       All States inform non-custodial parents of their right to request a modification at the time
       the order is established. Respondents indicated that this is usually communicated verbally
       or in written form at the initial conference with the non-custodial parent. In all States,
       modifications to the monthly support obligation require a change to the formal court order
       and are made only when either the non-custodial parent’s income has changed by a
       specified amount or the obligation would change by a specified amount. A report issued
       by the Office of Inspector General in March 1999, “Review and Adjustment of Support
       Orders”, OEI-05-98-00100, found deficiencies in the methods States were using to notify
       parents of the right to request a review as well as a reluctance in some States to modify
       orders downward.



JOB PROGRAMS: Few sampled child support agencies
formally link with job programs. Non-custodial parent
participation in such programs is minimal.
       Despite increasing attention by the research and policy community to the limited earnings
       capacity of low-income non-custodial parents and increased funding for job services, most
       sampled States have only informal arrangements for referral to existing job services
       programs. These programs are largely external to the IV-D agencies with little to no
       participation by non-custodial parents. Respondents in virtually all local offices were
       vaguely aware of job service programs. They often indicated that these programs were
       newly implemented and acknowledged having limited information about them. Some
       respondents reported referring non-custodial parents to these programs but with little
       information on what the program offers and whether the parent ever followed through.

       Reasons cited for lack of participation included program eligibility requirements, non-
       custodial parents not volunteering, and a lack of means to promote participation or to
       follow-up on referrals. Washington and Maryland have more structured referral processes
       to job services; however, participation is still reported to be minimal.

   Low-Income Non-Custodial Parents                                                   OEI-05-99-00390
                                                20
    Greater participation is reported in “seek work” programs. Two States, Pennsylvania and
    Massachusetts, have structured IV-D “seek work” programs through which non-custodial
    parents are required to apply for employment and report back on their progress on a
    weekly or monthly basis. In some localities the Massachusetts program involves job
    services in addition to seek-work if the non-custodial parent is determined to be in need of
    such services to secure a job.

    Respondents in Massachusetts and Pennsylvania indicated that roughly 10 percent of their
    total non-custodial parent caseload participate in “seek work” programs. Participation is
    often mandated in the court order establishing a temporary minimum support obligation.
    The non-custodial parent must actively apply for jobs and report back on the search.
    Upon employment, the order is modified to reflect the non-custodial parent’s new income.
    If the parent does not obtain a job and is deemed to have not made a good faith effort, he
    may be held in contempt of court.




Low-Income Non-Custodial Parents                                                   OEI-05-99-00390
                                             21
                                      CONCLUSION

       States use a variety of tools to encourage non-custodial parents to cooperate with the
       child support enforcement system. Many of these tools are designed to hold non-custodial
       parents liable for child support payments regardless of behaviors which may inhibit order
       establishment or payment of the order. While these policies may discourage unwillingness
       to pay, if non-custodial parents are unable to pay the support owed, such policies are not
       likely to promote payment compliance.

       As the facts in this report demonstrate, the policies reviewed do not usually generate child
       support payments by low-income non-custodial parents. Recognition of this fact presents
       opportunities to improve payment levels by modifying State policies that determine the
       amount that low-income absent parents must pay. Clearly, some systematic
       experimentation is warranted.

       The experiments should emphasize parental responsibility, while improving the ability of
       low-income non-custodial parents to meet their obligations. This requires a dual approach
       of setting realistic support obligations and providing employment support with work
       requirements. The goal of these approaches is to get non-custodial parents to take
       financial responsibility for their child, which is to the benefit of all of the parties involved
       — the custodial parent, the State and, ultimately, the child.

       States are in the best position to conduct such experiments. However, the Office of Child
       Support Enforcement can do much to encourage, facilitate, and evaluate such State
       experimentation. We offer suggestions for State research and experimentation
       corresponding to the four areas of analysis contained in this report: retroactive support,
       income imputation, debt owed to the States, and job programs. We present the following
       suggestions to the OCSE to facilitate such experimentation:

RETROACTIVE SUPPORT: Facilitate and support State experiments to test the
payment effects of using various periods of retroactivity in determining support

       Our findings demonstrate that the longer period of time for which retroactive support is
       charged, the less likely the parent is to pay support. States could test and evaluate the
       payment effects of charging retroactive support for various time periods, including
       restricting retroactivity to the time the request for child support was initially filed. These
       demonstrations would indicate whether shorter periods of retroactivity are more effective
       in generating payments.


   Low-Income Non-Custodial Parents                                                      OEI-05-99-00390
                                                 22
       Most of the sampled States routinely charge non-custodial parents front-end arrears to
       recoup support for a period of time prior to the establishment of the child support order.
       One reason States may charge retroactive support without limits is the rationale that the
       non-custodial parent should be responsible for the child from the time the child is born.
       Some States may charge retroactive support as an incentive for non-custodial parents to
       cooperate with the IV-D agency as early as possible.

       Although it can be argued that these are justifiable reasons for charging retroactive
       support for longer periods of time, these policies does not appear effective in getting non-
       custodial parents to pay. Our findings show that the greater the length of time for which
       non-custodial parents are charged retroactive support, the less likely they are to make any
       payments on their child support order, once established.

       When a low-income non-custodial parent starts off an order nearly $2,000 in arrears, he or
       she may view compliance with the support order as hopeless in the face of what may be an
       insurmountable debt and may avoid contact with the system all together. Fathers
       interviewed by the Parents’ Fair Share program often cited overwhelming arrears as an
       obstacle to their payment compliance.11 In non-marital cases, the non-custodial parent
       may not have even known that the child existed during the time of retroactive support.
       When faced with charges for support dating back several years in some cases, the non-
       custodial parent is not likely to view the child support system as a fair and reasonable
       system with which they can work. In effect, cooperation may actually be discouraged.

       The OCSE could fund evaluations in several States to test various periods of retroactivity
       to determine whether non-custodial parents demonstrate a higher rate of payment
       compliance when retroactivity is restricted. Exceptions should be made in cases where a
       non-custodial parent makes clear efforts to delay the filing for support. For example, in
       Massachusetts, non-custodial parents are only charged retroactive support in egregious
       cases. State evaluations should also examine the effect of restricting retroactive support on
       non-custodial parent cooperation with the order establishment process.

DEBT OWED TO STATES: Facilitate and support State experiments to test
negotiating the amount of debt owed to the State in exchange for improved
payment compliance

       Many low-income non-custodial parents face insurmountable arrears. Viewing the system
       as unreasonable and adversarial, many low-income obligors pay nothing rather than
       something. Debt negotiation as a method of improving payments has recently garnered a
       significant level of attention in the IV-D community. The OCSE could provide leadership
       in this area by facilitating State experimentation to test the payment effects of debt
       negotiation. Specifically, OCSE could fund State demonstration programs to test:

   Low-Income Non-Custodial Parents                                                   OEI-05-99-00390
                                                23
    <	       Reducing child support debt owed to the State if the non-custodial parent
             demonstrates a continued effort to pay the monthly obligation and the debt due
             exceeds a defined level of burden relative to the non-custodial parent’s income.

    <	       Reducing the debt owed to the State in cases where the non-custodial parent has
             reunited with the custodial parent and children and the reunited family’s income is
             below a certain threshold.

    The sampled States rarely reduce arrears owed to the State. Many respondents indicated
    that they are forbidden by law from doing so. While the Bradley Amendment (42 USC
    Section 666(a)(9)) states that child support orders are not retroactively modifiable, this
    does not preclude State reduction of child support arrears owed to the State. The Bradley
    Amendment requires States to make arrears a judgement by operation of law. As stated in
    the OCSE’s Policy Information Question (PIQ)-99-03, as a party to a judgement, States
    can agree to compromise or settle the judgement, pursuant to State law. Accordingly,
    States can accept less than the full payment of arrearages assigned to the State just as they
    can compromise and settle any other judgements in the State.

    In July 1999, the Internal Revenue Service (IRS) issued regulations to allow tax debt
    forgiveness, rather than seizing assets, when a taxpayer can show that their assets are
    needed to pay for medical care or basic living expenses. The IRS Commissioner stated
    “For taxpayers caught in severe hardships, this gives the IRS a new tool to work with
    people and help settle their tax debt.” State public assistance agencies could follow the
    lead of the IRS by reducing the debt owed to the State in cases where the debtor does not
    have the income to pay the total debt to encourage and facilitate routine payments.

    Child support debt, especially in States which charge interest on unpaid support, can often
    amount to a substantial burden relative to the income of low-income non-custodial
    parents. The average amount of child support debt remaining on cases established in 1996
    is nearly $5,000 with 75 percent of cases owing over $1,200.

    The accumulation of such high arrears often triggers penalties such as license revocation
    and criminal pursuit. In some cases, this debt is due to the non-custodial parent’s failure to
    pay support which the non-custodial parent could have and should have paid. In other
    cases debt is due to front-end arrears which the non-custodial parent never had the income
    to pay or a decline in the non-custodial parent’s income once the order was established.

    In any of these circumstances, the high level of debt is likely to result in no payments.
    Low-income non-custodial parents faced with thousands of dollars in debt, often see
    attempts to comply with a support order as futile. The OCSE could provide research and


Low-Income Non-Custodial Parents                                                    OEI-05-99-00390
                                              24
       demonstration grants to States to test the effects of intervening in these instances and
       reducing the debt to a feasible level in return for the non-custodial parent’s continued
       payment compliance on the monthly obligation. In cases where the non-custodial parent is
       reunited with the custodial parent and children, debt reduction could be tested as a tool to
       help support the newly reunited family to maintain self-sufficiency and remain intact.

INCOME IMPUTATION: Encourage States to decrease the use of income
imputation and to test alternative means of identifying income for low-income
obligors.

       If a non-custodial parent does not respond to a summons to appear at a conference or
       court hearing, fails to submit income information and does not have recent income listed
       on the State tax or employment system, caseworkers tend to base the award on imputed
       income. The caseworkers interviewed indicated that they are not yet using the New Hires
       Directory to obtain information or are having difficulty using it for low-income cases.

       It is understandable that States do not want to reward non-custodial parents for failing to
       appear or submit information or for failure to work. An award should be established and
       to establish an award, income must be used. Child support agency staff are often faced
       with no other choice but to impute income. However, as the reviewed cases demonstrate,
       imputing income yields poor payment results. In order to increase payments, States must
       exercise every possible means to base awards on actual, rather than imputed income.

       OCSE could help States to base awards on actual income more often by:

       <	       Impressing upon States the importance of devoting time and resources to obtain
                income information as a priority in the order establishment process;

       <	       Ensuring States are effectively using the information supplied by the National
                Directory of New Hires, implemented in 1997; and

       <	       Funding demonstration projects to test alternative means of identifying income for
                low-income non-custodial parents, many of whom are self-employed, work as day
                laborers, are paid in cash, and change jobs frequently.

       If an award is not initially established in accordance with ability to pay, States should not
       assume that it will be appropriately modified down the road. Although parents are legally
       allowed to have their order reviewed at least once every three years, many non-custodial
       parents may not know of this right or may not have the means to exercise it.

       A report issued by the Office of Inspector General in March 1999, “Review and

   Low-Income Non-Custodial Parents                                                    OEI-05-99-00390
                                                 25
       Adjustment of Support Orders”, OEI-05-98-00100, found deficiencies in State notification
       policies and different treatment for downward modifications, with several States requiring
       non-custodial parents to pursue such modifications on their own. The recommendations
       of that report, encouraging greater use of review and adjustments, would help to ensure
       that orders are more in line with ability to pay over time. Just as orders should be aligned
       with ability to pay at the point of order establishment, they should remain aligned over
       time in order to encourage payment compliance.

JOB PROGRAMS: Encourage States to formalize links with job services
programs and to require unemployed non-custodial parents to participate in
these programs

       The OCSE could encourage States to take advantage of existing programs to increase the
       earnings capacity and payment abilities of low-income non-custodial parents. Specifically
       States could formalize referral relationships with outside agencies, court order
       unemployed non-custodial parent participation in these programs, and institute structured
       follow-up procedures.

       <	       IV-D agencies could establish linkages with programs offering both seek work and
                job training approaches, in order to refer non-custodial parents to the appropriate
                track depending upon their level of job readiness.

       <	       Unemployed, able-bodied non-custodial parents could be required in their court
                order to participate in job services or seek work or face contempt of court.

       <	       Financial obligations should be established based on the income level attained
                following program participation, rather than based on imputed income, in order to
                improve the potential for support collections. Award amounts should be aligned
                with any income earned through program participation or set as a minimum
                amount until a final award can be determined upon employment.

       <	       To facilitate IV-D efforts to require such participation, OCSE could recommend a
                change to related language in the Personal Responsibility and Work Opportunity
                Reconciliation Act of 1996 (PRWORA) to expand State authority to require non-
                custodial parent participation in work activities. The PRWORA gives States
                authority to require any unemployed person owing past due support to participate
                in work activities. The OCSE could recommend this be amended to provide States
                the authority to also require any unemployed person at the point of order
                establishment to participate in work activities.

       <        In addition to urging States to move ahead in this area independently, OCSE

   Low-Income Non-Custodial Parents                                                   OEI-05-99-00390
                                                26
             could recommend that any proposed fatherhood legislation include funding for
             projects which model this approach. Projects could test the effects of ordering
             non-custodial parent participation in seek work or job services and delaying the
             establishment of the final financial obligation until actual income can be used.

    <	       To enhance child support agency efforts to formally link with job programs, OCSE
             could propose that any fatherhood legislation require grant applicants to
             coordinate with IV-D agencies. Applicants could be required to delineate each
             agency’s responsibility in the referral arrangement, linkages between order
             establishment and service participation, and responsibility for follow-up efforts.

    State IV-D agencies should not provide the job services directly. Rather, they should take
    advantage of existing programs which are federally funded to serve the non-custodial
    parent population. Under the Balanced Budget Act of 1997, welfare-to-work funds are
    available for States to provide employment and training services to low-income non-
    custodial parents of children receiving TANF. In September 1999, the Department of
    Labor awarded 64 welfare-to-work grants totaling $222 million, for projects targeting
    specific categories of recipients including non-custodial parents. The Department of
    Health and Human Services has also provided funds for services targeting non-custodial
    parents through the Fatherhood Initiative and related OCSE demonstrations. Most
    recently, in March 2000, the Department announced $15 million for demonstration
    projects serving non-custodial parents who do not have child support orders in place.

    Despite the multiple sources of funds available, our findings reveal that services for low-
    income non-custodial parents are greatly underutilized. In most sampled States, referral
    relationships with local job service programs appeared to be very informal, devoid of any
    linkages between the establishment of an order and service participation, and lacking
    follow-up on referrals that are made. Few non-custodial parents volunteer for such
    services and most sampled States do not mandate participation.

    One reason cited by respondents for lack of participation was restrictions on program
    eligibility. The November 1999 Consolidated Appropriations Act included amendments to
    the welfare-to-work law to broaden the eligibility requirements for non-custodial parent
    participation in job services. Hence, restrictions should no longer be a barrier.

    Enforcement mechanisms alone have not appeared effective in improving child support
    payments from low-income non-custodial parents. For many of these parents it is not a
    matter of unwillingness to pay but inability to pay. In the wake of welfare reform, it is
    critical that greater efforts are made to boost the payment of support owed to low-income
    families. Just as low-income custodial parents are expected to go to work and contribute
    to the financial well-being of their family in return for limited transitional assistance,

Low-Income Non-Custodial Parents                                                   OEI-05-99-00390
                                              27
    low-income non-custodial parents should be held to the same expectation. If they do not
    have the income to pay support, they should be allowed the opportunity to earn the
    income and then be expected to pay support.

    Requiring unemployed non-custodial parents to participate in job services at the time of
    order establishment can have the added benefit of uncovering unreported employment.
    Findings from the Parent’s Fair Share Demonstration revealed that part of the increase in
    child support payments produced by the project’s extra outreach services was due to
    parents informing the child support agency of previously unreported employment.12

    Our analysis demonstrates that imputing income and setting minimum awards are not
    effective methods of achieving payment compliance when a non-custodial parent is
    unemployed. Requiring unemployed non-custodial parents to engage in structured job
    services programs and then basing the child support order on actual income promises
    greater payment compliance. This combination of opportunities and enforcement can be
    seen as the parallel to the personal responsibility contract expected of custodial mothers.
    In accordance with the Fatherhood Initiative’s goals of promoting responsible fatherhood
    and family self-sufficiency, we encourage the OCSE to facilitate State efforts to take this
    next step in the evolution of the child support enforcement program.




Low-Income Non-Custodial Parents                                                   OEI-05-99-00390
                                             28
                         AGENCY                COMMENTS

The Administration for Children and Families (ACF) and the Assistant Secretary for Planning and
Evaluation (ASPE) provided formal comments to the draft report. Both offices concurred with
the report’s findings and suggested approaches. The text of the ACF and ASPE comments can be
found in Appendix F.

In addition to existing initiatives, ACF described numerous actions that they will take to
implement the suggested approaches with regard to retroactive support charges, compromising
arrears, income imputation, and job programs.

The ACF offered one technical comment on the report. In reference to our discussion of
caseworkers’ use of the NDNH, the ACF asked us to clarify that the study was conducted using
sample cases established during 1996 which was prior to the implementation of the National
Directory of New Hires (NDNH). Although the case data was collected on cases established in
1996, the process data collected through case worker interviews reflect local practices as of the
time of data collection, September through November 1999. This distinction is explained in the
Scope and Methodology section of the report. Therefore, the discussion of the lack of use of
NDNH data by sampled caseworkers is relatively current.

The ASPE commented that our findings are consistent with, and complementary to, other
research on this subject. The ASPE also indicated that our suggested approaches would
strengthen existing Administration efforts to improve the payment compliance and involvement of
low-income non-custodial parents.




    Low-Income Non-Custodial Parents                                                  OEI-05-99-00390
                                                29
                                                                                 APPENDIX A


                Confidence Intervals for Selected Statistics


The following table shows the point estimates and 95 percent confidence intervals for selected
statistics, in the order that they appear in the report. These calculations account for all levels of
clustering and stratification as described in the methodology.


                                                                  Point             95 Percent
                              Statistic
                                                                 Estimate       Confidence Interval
For cases that were established during 1996, average (mean)
                                                                   $1,852           $508 - $3,195
additional costs beyond the basic child support order

Of cases that were established during 1996, percent with
                                                                   57.9%            27.2% - 88.5%
retroactive support charges

For cases that were established during 1996, average (mean)
                                                                   $1,788           $473 - $3,104
retroactive support charges

For cases that were established during 1996, average (mean)
                                                                     $63              $13 - $114
additional costs other than retroactive support charges

Of monthly-payment cases that were established during 1996,
                                                                   12.8%            2.6% - 23.0%
percent that were established using a minimum award

For monthly-payment cases that were established during 1996,
                                                                   $4,831          $3,099 - $6,564
average (mean) debt remaining after 32 months




    Low-Income Non-Custodial Parents                                                      OEI-05-99-00390
                                                   30
                                                                                  APPENDIX B


                                Results of Hypothesis Testing



The following tables show the percent of cases in which the non-custodial parent did not make any
payments during the first 32 months, broken out by category. We used t-tests to evaluate the
confidence level that the difference between the categories was statistically significant. In the last
table, we used logistic regression with one independent variable.



                                             FRONT-END COSTS

                                                                         Percent of cases with zero
                                 Category                                payments during the first
                                                                                 32 months
                                         Cases with front-end costs            25.7 percent
 1996 monthly-payment cases
                                         Cases without front-end costs         15.7 percent
 Value of t                                                                        1.86
 Confidence level                                                               93 percent




      Low-Income Non-Custodial Parents                                                       OEI-05-99-00390
                                                        31
                                         INCOME IMPUTATION


                                                                              Percent of cases with zero
                                Category                                      payments during the first
                                                                                      32 months

 1996 monthly-payment                  Cases with imputed income                      44.1 percent
 cases in States where
 imputation data were                  Cases without imputed
 available for all cases1                                                             10.9 percent
                                       income
 Value of t                                                                               16.56
 Confidence level                                                                      99 percent



                                           MINIMUM ORDERS 


                                                                              Percent of cases with zero
                                                                              payments during the first
                               Category                                               32 months
                                       Cases established as minimum
                                                                                      36.2 percent
                                       orders
1996 monthly-payment cases
                                       Cases established as
                                                                                      20.1 percent
                                       non-minimum orders
Value of t                                                                                1.95
Confidence level                                                                       94 percent




        1
                 Imputation data were available for all cases in three States: Colorado, Massachusetts, and Texas.
    Low-Income Non-Custodial Parents                                                                OEI-05-99-00390
                                                        32
For the following table, we used logistic regression with one independent variable. The
independent variable was the number of months charged for retroactive support, and the dependent
variable was whether the non-custodial parent made any payments during the first 32 months.

                                      RETROACTIVE SUPPORT

                           Degrees of freedom        1
                           Wald F                    17.93
                           Confidence level          99 percent




   Low-Income Non-Custodial Parents                                               OEI-05-99-00390
                                                33
                                                                                  APPENDIX C


                                               Case Data



              Descriptive Information on Sampled Cases                                Number
 Non-Custodial parents (NCPs) for whom child support cases were reviewed                  281

 Reviewed child support cases established in 1996 in the sampled States                   298

 Reviewed child support cases established in 1996 in sampled States with a non-           293
 zero monthly support obligation

 Reviewed cases including secondary cases for the sampled NCPs                            402

 Sampled NCPs with more than 1 child support case                                         74




           Weighted Statistics Based on The Sampled Cases

Except where specified, the following statistics are weighted projections from our sample, taking
into account all levels of clustering and stratification.


     Initial Orders with Monthly Support Order (MSO) >0 Established in 1996
 Percent of 1996 cases that required monthly payments (MSO>0):                        98.1%

 Sample minimum and maximum orders                                                  $22 to $853

 Mean order amount                                                                     $179

 Quartiles:                            25%                                             $98

                                       50% (median)                                    $145

                                       75%                                             $222




    Low-Income Non-Custodial Parents                                                    OEI-05-99-00390
                                                      34
   Arrears Due after 32 Months of Financial Obligations Established in 1996
Percent of 1996 cases with arrears >0                                               92.4%

Sample minimum and maximum arrears                                               $1 to $57,838

Mean arrears amount (of cases charged arrears)                                      $5,230

Quartiles:                            25%                                           $1,426

                                      50% (median)                                  $3,591

                                      75%                                           $6,791




                            Income Used in Calculation of the Order
Of 1996 monthly-payment cases, sample (un-weighted), percent of cases for
which the income used to calculate the order was in the file and was greater       57.7%
than zero

Sample minimum and maximum annual income used                                  $310 to $37,440

Mean annual income used                                                           $11,088

Quartiles:                            25%                                          $7,759

                                      50% (median)                                 $9,869

                                      75%                                         $14,501




   Low-Income Non-Custodial Parents                                                   OEI-05-99-00390
                                                     35
                        Front-end Arrears Charged on 1996 Cases

                                         Retroactive Support
Percent of 1996 cases charged retroactive support                            57.9%

Sample minimum and maximum retroactive support amounts                   $47 to $36,942

Mean retroactive support amount (of cases charged retroactive support)      $3,091

Quartiles:                            25%                                    $641

                                      50% (median)                          $1,480

                                      75%                                   $3,205

Mean Duration of time (months) Non-custodial parents were charged            22.8
retroactive support

Quartiles:                            25%                                     4.4

                                      50% (median)                           10.8

                                      75%                                    26.2




                                              Court Fees
Percent of 1996 cases charged court fees                                     13.5%

Sample minimum and maximum arrears                                         $5 to $349

Mean court fees amount (of cases charged court fees)                         $205

Quartiles:                            25%                                    $101

                                      50% (median)                           $243

                                      75%                                    $275




   Low-Income Non-Custodial Parents                                           OEI-05-99-00390
                                                     36

                                               Birth Fees2
Percent of 1996 cases charged birth fees                                                      <1%

Sample minimum and maximum birth fees                                                    $124 to $2,293

Mean birth fees amount                                                                        $532




                                             Paternity Fees
Percent of 1996 cases charged paternity fees                                                   9.0%

Sample minimum and maximum paternity fees                                                  $142 to $408

Mean paternity fees amount                                                                     $231

Quartiles:                            25%                                                      $188

                                      50% (median)                                             $206

                                      75%                                                      $252




                                       Case Processing Fees3
Percent of 1996 cases charged case processing fees                                             3.4%

Sample minimum and maximum case processing fees                                             $10 to $66

Mean case processing fees amount                                                                $19




                              1996 Cases Based on Imputed Income
Percent of cases established in 1996 based on imputed Income4                                45.5%

Mean amount of income imputed (all States)                                                   $9,789

Median amount of income imputed (all States)                                                 $8,600



       2
                Only 4 cases were charged birth fees.
       3
                Only 11 cases were charged case processing fees.
       4	
                We were only able to gather complete data on imputation in CO, MA, and TX, although we were
                able to gather some imputation data in other sampled States.
   Low-Income Non-Custodial Parents                                                           OEI-05-99-00390
                                                        37
                           Reasons for Income Imputation (All States)
NCP did not appear at the case conference or court hearing                     31.5%

NCP unemployed                                                                 27.2%

No information was available on NCP income                                     14.5%

NCP underemployed/perceived to be deliberately unemployed                      10.0%

False information provided                                                     1.5%




                    Factors on Which Imputation was Based (All States)
Minimum wage                                                                   65.2%

Court discretion                                                               23.4%

Income received in most recent employment period                               12.1%

Work history                                                                   11.8%

Education level                                                                10.8%

Skills                                                                         4.5%

Disability of NCP                                                              2.0%




                         1996 Cases Established as a Minimum Award
Percent of 1996 cases established as a minimum award                           12.8%

Mean minimum award                                                              $74

Median minimum award                                                            $55




                          Modifications to Cases Established in 1996
Percent of 1996 monthly-payment cases which had at least one modification to   13.3%
the monthly support obligation (MSO)

Percent of 1996 monthly-payment cases in which the MSO was modified to zero    6.3%

Percent of 1996 monthly-payment cases in which the MSO was modified            3.3%
downward (excluding modifications to zero)




   Low-Income Non-Custodial Parents                                            OEI-05-99-00390
                                                 38
                                     Percent of NCP by Age Category

                                          56 %

                                                                      11 %




                                                                      9%




                                                          24 %



                                           Age <= 20             Age 21-30
                                           Age 31-40             Age > 40

Percent of Cases in Each NCP Age Category with No Payments Made In First 32
                          Months of Support Order
Age 20 Years or Under                                                                      16.9%

Age 21 to 30 Years                                                                         22.0%

Age 31 to 40 Years                                                                         18.6%

Age 40 Years and Over                                                                      27.7%




 Percent of NCPs Located in Urban5 and Rural Areas and Payment Compliance
                                                 Zip                                 County
                                        Urban           Rural                Urban            Rural
NCP Location                             77.8%          22.2%                79.2%            20.8%

Cases with No Payments6                  24.6%          8.7%                 22.4%            16.6%




      5
               For these statistics, we defined “urban zip codes” and “urban counties” to be zip codes
               and counties with more than 50 percent urban population based on 1990 census data.
      6
               Differences in payment compliance between urban and rural locations were statistically
               significant.
  Low-Income Non-Custodial Parents                                                         OEI-05-99-00390
                                                   39
                                                                        APPENDIX D



            Related Office of Inspector General Reports


    Paternity Establishment: Notification of Rights And Responsibilities For Voluntary
     Paternity Acknowledgment (OEI-06-98-00051)

    Paternity Establishment: Use of Alternative Sites for Voluntary Paternity Acknowledgment
     (OEI-06-98-00052)

    Paternity Establishment: State Use of Genetic Testing (OEI-06-98-00054)

    Paternity Establishment: The Role of Vital Records Agencies (OEI-06-98-00055)

    Paternity Establishment: Payment to Vital Records (OEI-06-98-00056)

    Review and Adjustment of Support Orders (OEI-05-98-00100)

    Review and Adjustment of Support Orders, Experience in Ten States (OEI-05-98-00102)

    Unpaid Child Support and Income Tax Deductions (OEI-05-95-00070)

    Grantees and Providers Delinquent in Child Support (OEI-07-95-00390)

    Review and Adjustment of IV-D Child Support Orders (OEI-07-92-00990)

    Follow-Up on AFDC Absent Parents (OEI-05-89-01270; 8/91)

    Child Support Enforcement Collection for Non-AFDC Clients (OAI-05-88-00340; 7/89)

    Child Support Enforcement Collections on AFDC Cases: An Overview (OAI-05-86-00097)

    Child Support Enforcement Collections on AFDC Cases: Non-Pursuit (OAI-05-87-00033)

    Child Support Enforcement Collections on AFDC Cases: Arrearages (OAI-05-87-00034)

    Child Support Enforcement Collections on AFDC Cases: Modification of Court Orders
     (OAI-05-87-00035)


Low-Income Non-Custodial Parents                                                OEI-05-99-00390
                                            40
                                                                                                    APPENDIX E

                                                   Bibliography
1.         “Low-Income Noncustodial Fathers: Who are They and What are States Doing to Assist Them in Their Efforts to Pay
           Child Support”, Elaine Sorenson, The Urban Institute, January, 1997.

2.	        “Broke But Not Deadbeat, Reconnecting Low-Income Fathers and Children”, Dana Reichert, the National Conference
           of State Legislatures, July 1999

3.	        “Income and Demographic Characteristics of Nonresident Fathers in 1993", Elaine Sorenson and Laura Wheaton, the
           Urban Institute, Forthcoming Report .

4.	        22nd Annual Report to Congress, Office of Child Support Enforcement, Administration for Children and Families, U.S.
           Department of Health and Human Services, FY 1997.

5.	        “Building Opportunities, Enforcing Obligations: Implementation and Interim Impacts of Parents’ Fair Share.”
           Manpower Demonstration Research Corporation. NY, NY, 1998.

6.         “Child Support for Custodial Mothers and Fathers: 1995" Current Population Report, U.S. Census Bureau, March 1999.


7.	        “Child Support Enforcement: Effects of Declining Welfare Caseloads are Beginning to Emerge”, GAO/HEHS-99-105,
           Draft Version May 17, 1999.

8.	        Fathers’ Fair Share, A Manpower Demonstration Research Corporation Study, Russell Sage Foundation, New York,
           1999.

9.	        Fathers Under Fire: The Revolution in Child Support Enforcement, Edited by Irv Garfinkel, Sara Mclanahan, Daniel R.
           Meyer, and Judith A. Selzer, Russel Sage Foundation, New York, 1998.

10.	       “Setting Support When the Noncustodial Parent is Low Income”, Policy Memorandum by Paula Roberts, Center for
           Law and Social Policy, February 8th, 1999.

11.	       “Obligating Dads: Helping Low-Income Noncustodial Fathers do More for their Children”, Elaine Sorenson, The Urban
           Institute, 1999.

12.	       “Low-Income, Non-Residential Fathers: Off-Balance in a Competitive Economy,” Kathryn Edin, Laura Lein, and
           Timothy Nelson, Draft, September 1998.

13.	       “The Review and Adjustment of Support Orders”, OEI-05-98-00100, Office of Inspector General, U.S. Department of
           Health and Human Services, March 1999.

14.	       “Child Support Guidelines: Interpretation and Analysis”, Laura Morgan, Aspen Law & Business, Aspen Publishers, Inc.
           New York, New York, 1999.

15.	       “Low-Income Fathers and Child Support Orders”, Daniel Meyer, Marcia Cancian, & Marygold S. Melli, Institute for
           Research on Poverty, University of Wisconsin -Madison, June 1997.

16.	       “Are there Really Deadbeat Dads? The Relationship between Ability to Pay, Enforcement, and Compliance in
           Nonmarital Child Support Cases.”, Judi Barfeld and Daniel Meyer, Institute for Research on Poverty, University of
           Wisconsin -Madison, March 1993.




       Low-Income Non-Custodial Parents                                                                       OEI-05-99-00390
                                                               41
                                                     APPENDIX F

                                   Agency Comments




Low-Income Non-Custodial Parents                         OEI-05-99-00390
                                          42

                                                     APPENDIX F

                                   Agency Comments




Low-Income Non-Custodial Parents                         OEI-05-99-00390
                                          43

                                                     APPENDIX F

                                   Agency Comments




Low-Income Non-Custodial Parents                         OEI-05-99-00390
                                          44

                                                     APPENDIX F

                                   Agency Comments




Low-Income Non-Custodial Parents                         OEI-05-99-00390
                                          45

                                                     APPENDIX F

                                   Agency Comments




Low-Income Non-Custodial Parents                         OEI-05-99-00390
                                          46

                                                     APPENDIX F

                                   Agency Comments




Low-Income Non-Custodial Parents                         OEI-05-99-00390
                                          47

                                                     APPENDIX F

                                   Agency Comments




Low-Income Non-Custodial Parents                         OEI-05-99-00390
                                          48

                                                     APPENDIX F

                                   Agency Comments




Low-Income Non-Custodial Parents                         OEI-05-99-00390
                                          49

                                                     APPENDIX F

                                   Agency Comments




Low-Income Non-Custodial Parents                         OEI-05-99-00390
                                          50

                                                     APPENDIX F

                                   Agency Comments




Low-Income Non-Custodial Parents                         OEI-05-99-00390
                                          51

                                                     APPENDIX F

                                   Agency Comments




Low-Income Non-Custodial Parents                         OEI-05-99-00390
                                          52

                                                     APPENDIX F

                                   Agency Comments




Low-Income Non-Custodial Parents                         OEI-05-99-00390
                                          53

                                                                                         APPENDIX G



                                                End-Notes


1.	        “Low-Income Noncustodial Fathers: Who are They and What are States Doing to Assist Them in Their
           Efforts to Pay Child Support”, Elaine Sorenson, The Urban Institute, January, 1997. And “Broke But Not
           Deadbeat, Reconnecting Low-Income Fathers and Children”, Dana Reichert, the National Conference of
           State Legislatures, July 1999

2.	        “Income and Demographic Characteristics of Nonresident Fathers in 1993", Elaine Sorenson and Laura
           Wheaton, the Urban Institute, Forthcoming Report .

3.         Ibid.


4. 	       22nd Annual Report to Congress, Office of Child Support Enforcement, Administration for Children and
           Families, U.S. Department of Health and Human Services, FY 1997.

5.	        “Child Support for Custodial Mothers and Fathers: 1995" Current Population Report, U.S. Census
           Bureau, March 1999.

6.	        “Child Support Enforcement: Effects of Declining Welfare Caseloads are Beginning to Emerge”,
           GAO/HEHS-99-105, Draft Version May 17, 1999.

7.         Op. cit., “Income and Demographic Characteristics of Nonresident Fathers in 1993".

8.         Ibid.


9.         Op. cit., “Broke But Not Deadbeat, Reconnecting Low-Income Fathers and Children”.

10.	       Fathers Under Fire: The Revolution in Child Support Enforcement, Edited by Irv Garfinkel, Sara
           Mclanahan, Daniel R. Meyer, and Judith A. Selzer, Russel Sage Foundation, New York, 1998.

11.	       Fathers’ Fair Share, A Manpower Demonstration Research Corporation Study, Russell Sage Foundation,
           New York, 1999.

12.	       “Building Opportunities, Enforcing Obligations: Implementation and Interim Impacts of Parents’ Fair
           Share.” Manpower Demonstration Research Corporation. NY, NY, 1998.




       Low-Income Non-Custodial Parents                                                            OEI-05-99-00390
                                                         54
